                         OFFICE O F THE INSPECTOR GENERAL
                          CORPORATION FOR NATIONAL AND
                               COMMUNITY SERVICE




                       RECOMMENDED IMPROVEMENTS TO THE
                        CORPORATION'S INTERNAL CONTROLS
                      FISCAL YEAR 2001 -MANAGEMENT LETTER

                               OIG Audit Report Number 02-02
                                        July 1,2002




                                            Prepared by:

                                            KPMG LLP
                                        2001 M Street, N.W.
                                       Washington, D.C. 20036

                       Under the Corporation for National and Community Service
                                   Purchase Order # 200107160002
                                     GS Contract # GS-23F-8127H
                                          Task Order # 00-01




This report was issued to Corporation management on July 1, 2002. Under the laws and
regulations governing audit follow up, the Corporation is to make final management decisions on
the report's findings and recommendations no later than January 2, 2003, and complete its
correctiveactions by July 1,2003. Consequently, the reported findings do not necessarily represent
the final resolution of the issues presented.
Office of Inspector General                                                                      CORPORATION
1201 New York Avenue, NW
                                                                                                 FOR N A T I O N A L
Washington, DC 20525
                                      Office of the Inspector General
                              Corporation for National and Community Service


                 Recommended Improvements to the Corporation's Internal Controls
                            Fiscal Year 2001 -Management Letter
                                      OIG Report 02-02


   The Office of the Inspector General, Corporation for National Service, engaged KPMG LLP to audit the
   Corporation's fiscal year 2001 financial statements. Their audit, conducted in accordance with
   government auditing standards, resulted in an unqualified opinion on the Corporation's financial
   statements. OIG Audit Report 02-0 1, Audit of the Corporation for National and Community Service's
   Fiscal Year 2001 Financial Statements, describes the basis for the opinion as well as one reportable
   internal control condition.

   During the engagement, the auditors also noted certain matters involving the control over financial
   reporting and other operational matters that were not considered material weaknesses or reportable
   conditions. This report, the management letter, discusses these conditions and includes recommendations
   for corrective action. OIG has reviewed the report and work papers supporting its conclusions and agrees
   with the findings and recommendations presented.

   We provided a draft to the Corporation for review and comment. The responses are included as Appendix
   B. In their response, the Corporation states that corrective action has been completed on many of the
   conditions. Follow-up has not been completed to determine the extent of corrective action.
CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                Management Letter
                 Fiscal Year 200 1
                               OFFICE O F THE INSPECTOR GENERAL
                  CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                  Recommended Improvements to the Corporation's Internal Controls
                                            Management Letter
                                                 Fiscal Year 2001

                                                                                       Page

Transmittal Letter                                                                       1

Appendix A - Recommended Improvements to the Corporation's Internal Controls

Grants Management

A.l    Oversight of OMB Circular A- 133 Reporting should be improved.
A.2    Oversight of grantee financial activity should be improved.
A.3    Grantee site visits should be improved.
A.4    The Corporation is not properly maintaining and utilizing the NSSC Compliance
       Monitoring database.

National Service Trust

B.l    The process of reviewing WBRS Reconciliation Reports should be strengthened.
B.2    Member end-of-term forms are not always approved timely.
B.3    The Corporation's methodology for calculating the Service Award Liability
       estimate needs to be reviewed.
B.4    Certain Members inappropriately received service awards.

Human Resources

C.l    Controls over payment of subsistence to VISTA members should be improved.
C.2    VISTA member files are incomplete.
C.3    Inaccurate information is entered into VMSISPAN for VISTA members.

Revenue from Reimbursable Agreements

D.l    Demand letters are not consistently sent on delinquent receivables.
D.2    The Corporation's methodology for aging receivables needs improvement.

Information Technology

E.l    Recommendations for continued improvements in the electronic processing of
       financial transactions.
E.2    Lack of proper access controls for WBRS.
Appendix B - Corporation Response
Appendix C - Status of Prior-Year Management Letter Comments
               2001 M Street. N.W.
               Washington, D.C. 20036




Office of the Inspector General
Corporation for National and Community Service:

We have audited the fiscal year 2001 financial statements of the Corporation for National and Community
Service, and have issued our report thereon, dated March 8,2002.

In planning and performing our audit, we considered the Corporation's internal control over financial
reporting by obtaining an understanding of the internal controls. We determined whether these internal
controls had been placed in operation, assessed control risk, and performed tests of controls in order to
determine our auditing procedures for the purpose of expressing our opinion on the financial statements,
not to provide assurance on internal control over financial reporting.

As a part of obtaining reasonable assurance about whether the Corporation's financial statements were free
of material misstatement, we performed tests of the Corporation's compliance with certain provisions of
laws and regulations, noncompliance with which could have a direct and material effect on the
determination of financial statement amounts, and certain other laws and regulations. Our report on internal
control over financial reporting and on compliance with laws and regulations based on an audit of the
financial statements, performed in accordance with Government Auditing Standards, identified those
matters we considered to be reportable conditions.

During our audit, we also noted certain matters involving internal control over financial reporting and other
operational matters that are not considered reportable conditions. These comments and recommendations
are presented in Appendix A to this letter for the Corporation's consideration, and are intended to improve
internal control over financial reporting or result in other operating efficiencies. To the extent prior year
comments have continuing relevance, we have incorporated these comments into those presented in
Appendix A. Our audit procedures were designed primarily to enable us to form an opinion on the
Corporation's financial statements, and therefore may not bring to light all weaknesses in policies or
procedures that exist.

The Corporation's response to our comments and recommendations are presented in Appendix B.
Appendix C presents the status of prior year management letter comments.

This report is intended solely for information and use of the United States Congress, the President, the
Director of the Office of Management and Budget, the Comptroller General of the United States, and the
Corporation for National and Community Service and its Inspector General, and is not intended to be and
should not be used by anyone other than these specified parties.




March 8,2002


1111            KPMG LLP KPMG LLF a U S lhrn61ed hab8llry partnershrp 8s
                a member of K P M G lnterna18onal a Swms assoclallon
                                                                                                      Appendix A
                                 OFFICE OF THE INSPECTOR GENERAL
                   CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                              Recommended Improvement to the Corporation's
                                  Internal Controls - Management Letter
                                                Fiscal Year 2001



(A)   Grants Management
      A.1   Oversight of OMB Circular A-133 Reporting should be improved
            The Corporation policies and procedures require the review of the Federal Audit Clearinghouse
            (FAC) Database during the award approval process to determine if the grantee submitted a Single
            Audit report and whether there were any findings related to the Corporation. The results of this
            process are documented on the Grant Officer Certification. During our audit, we reviewed 37 grant
            files and noted that the grant award was approved for two grantees that did not have a current Single
            Audit report in the FAC Database. Additionally, the Grant Officer Certification indicated that there
            were no findings for one of 11 grantees over which the Corporation had oversight responsibilities,
            although the audit report in the FAC Database contained findings related to the Corporation.

            The grantee submits the A-133 report and data collection form to the FAC within the earlier of 30
            days after receipt of the auditors' reports, or nine months after the end of the audit period. The audit
            report is forwarded to the Corporation if there are findings related to it or if the Corporation is
            designated as the cognizant federal agency. In order to resolve the audit findings related to its
            programs, the Corporation is required to issue a management decision within six months of the
            receipt of the report, and must complete final action within 12 months thereafter. For two of 37
            grantees selected, we noted that the Corporation did not issue a management decision to address the
            Single Audit report findings.

            We recommend that the Corporation:

                  Strengthen controls over the A-133 review process to ensure that these procedures are being
                  performed and properly documented on the Grant Officer Certification. In cases where the
                  Single Audit report was not submitted to the FAC Database, the Corporation should receive it
                  directly from the grantee. If the grantee has not completed its Single Audit and the Corporation
                  decides to issue the grant award, the award document should include a special condition to
                  inform the grantee that the report must be submitted within a specified time, otherwise the
                  funding will be placed in a "HOLD" status;
                  Ensure that proper documentation for all management decisions and final resolutions issued on
                  the A-133 audit report is properly maintained for future reference and audit purposes.
                  Provide training to grant management staff, state commissions, and national direct grantees on
                  how to properly perform and document the A-133 audit review. Training should include (i) an
                  overview of the OMB Circular A-133 requirements; (ii) detailed instructions on how to access
                  and navigate the FAC Database; and (iii) an overview on how to perform and document a
                  complete review.




                                                                                                        (Continued)
                                                                                              Appendix A
                          OFFICE OF THE INSPECTOR GENERAL
             CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                       Recommended Improvement to the Corporation's
                           Internal Controls - Management Letter
                                         Fiscal Year 2001



A.2   Oversight of granteefinancial activity should be improved
      Grantees are required to expend funds for allowable costs and provide SF-269, Financial Status
      Report (FSR), to the Corporation to demonstrate compliance with the grant terms and provisions.
      Grantees are also required to provide cash draw down information, which is necessary for estimating
      outstanding grant advances and payables at year-end.

      During our audit, we noted the following exceptions:

      NCSA Grants:

            13 of 39 grant files reviewed did not have the current FSR on file;
            Two of 39 grant files reviewed contained current FSRs that were submitted late

      D VSA Grants:

            For five of 21 grant advance balances reviewed, at least one FSR was submitted late;
            For 16 of 32 grant payable balances reviewed, at least one FSR was submitted late.

      Failure to receive the FSRs within the established timeframe does not allow the Corporation to
      record grant expenses, advances, and payables in a timely manner. Additionally, missing FSRs
      makes it difficult to review matters concerning grantees should questions arise in the course of the
      year or during the grant close out process.

      We recommend that the Corporation implement review, follow-up, and punitive procedures, if
      appropriate, to ensure that grantees submit the FSRs in a timely manner.

A.3   Grantee site visits should be improved
      Internal control weaknesses identified during site visits are not always communicated to grantees on
      a timely basis. Additionally, corrective actions on the noted deficiencies are not always
      communicated to the Corporation on a timely basis.
      During our audit, we noted the following exceptions:

      NSSC Monitoring Visits

            For one of 20 monitoring visits, the Corporation could not provide evidence that the report was
            issued;
            10 of 20 monitoring reports were not issued within a timely manner (i.e., within 20 days);




                                                                                                 (Continued)
                                                                                                Appendix A
                          OFFICE OF THE INSPECTOR GENERAL
             CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                       Recommended Improvement to the Corporation's
                           Internal Controls - Management Letter
                                          Fiscal Year 2001



            For eight of 20 monitoring reports reviewed, the Corporation did not receive corrective action
            plans or follow-up letters that addressed the deficiencies that were identified during the
            monitoring visit;
            Six of nine corrective action plans or follow-up letters were not received in a timely manner
            (i.e., 20 days)

      State Administrative Standards Visits

            Three of five state administrative standards visit reports reviewed were not issued to the
            grantee in a timely manner (i.e. within six weeks);
            For all five state administrative standards visits reports reviewed, the Corporation did not
            receive corrective action plans from the grantees that addressed the deficiencies that were
            identified during the monitoring visit.

      Grant Management StaffMonitoring

            Two of five monitoring visit reports reviewed were not submitted to the grantee in a timely
            manner (i.e., within 15 working days);
            Three of five corrective action plans were not received in a timely manner (i.e., within 30
            days).

      The Corporation may not take appropriate and timely action, if internal control weaknesses are not
      followed up to ensure timely resolution.
      We recommend that the Corporation reemphasize the importance of issuing monitoring reports and
      obtaining corrective action plans from the grantees within the timeframe established by the
      Corporation. Also, the Corporation should notify the grantees of the appropriate actions that will be
      taken to penalize those grantees that consistently miss reporting deadlines.

A.4   The Corporation is not properly maintaining and utilizing the NSSC Compliance Monitoring
      database
      The Corporation maintains a NSSC Compliance Monitoring Database to track NSSC monitoring
      visits that are performed by the State Offices. During our audit, we noted the following exceptions:

            13 of 30 grantees selected for testing did not have a site visit conducted;
            Two of 30 grantees selected did not have a site visit conducted within the last three years;
            None of the five monitoring compliance site visit reports reviewed agreed to the
            documentation in the NSSC Compliance Monitoring Database.



                                                                                                  (Continued)
                                                                                                       Appendix A
                                 OFFICE OF THE INSPECTOR GENERAL
                   CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                              Recommended Improvement to the Corporation's
                                  Internal Controls - Management Letter
                                                Fiscal Year 2001



                  For five of 20 monitoring visits, the Corporation could not locate the Monitoring Compliance
                  document that was used during the visit.

            The foregoing exceptions indicate that the Corporation is not properly maintaining its NSSC
            Compliance Monitoring Database. Inaccurate updating of the database does not allow the
            Corporation to ensure that NSSC grantees have site visits performed every three years in accordance
            with Corporation policies. Also, the Corporation may not take appropriate and timely action, if they
            are not aware of problems that may require specific attention.

            We recommend that the Corporation reemphasize the importance of updating the NSSC Compliance
            Monitoring Database with accurate information and in a timely manner. The senior program staff
            should review the Database to ensure that site visit information is adequately uploaded based on
            reports received from state offices. Semi-annual reviews of the database should also be established in
            order to ensure that all NSSC grantees have been monitored within the last three years.

(B)   National Service Trust
      B.1   The process of reviewing WBRS Reconciliation Reports should be strengthened
            During our test work over the National Service Trust, we noted that cluster representatives had not
            reviewed four of the 30 WBRS Reconciliation Reports selected. As a result, discrepancies identified
            for four members were not adjusted in the VMSISPAN database as follows:

                  Two members should have been terminated on 11/9/00 and 12/20/00;
                  One member should have been enrolled on 7/6/01;
                  One member (a pending member) should have been enrolled and terminated by 81710 1.

            Although the effect of the exceptions noted was not considered material, inaccurate information in
            VMSISPAN could result in errors when future educational award payments are requested and in the
            computation of the National Service Trust Liability for financial statement purposes.
            We recommend that the Corporation emphasize the importance of the WBRS reconciliation process
            as a key control over the accuracy of the SPAN Database. Further, we recommend that cluster
            representatives document their review in order to facilitate the discharge of their job responsibilities.

      B.2   Member end-of-term forms are not always approved timely
            For six of the 20 non-VISTA members selected, we noted that the time lag between the service
            completion date and the date the certifying official approved the end of term form in WBRS was
            over one month. The processing delay for two of the six members amounted to over 110 days.

            Delays in processing members' exit could impact the calculation of the service award liability and
            related expenses.

                                                          5                                              (Continued)
                                                                                               Appendix A
                          OFFICE OF THE INSPECTOR GENERAL
             CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                       Recommended Improvement to the Corporation's
                           Internal Controls - Management Letter
                                         Fiscal Year 2001



      We recommend that the Corporation reemphasize the importance of timely processing members'
      exits within a 30-day period following member sign off and service completion date to all programs.

B.3   The Corporation's methodoloayfor calculating the Service Award Liability estimate needs to be
      reviewed
      During our review of the Corporation's methodology for calculating the service award liability, we
      noted that some of the assumptions used in the model should be reviewed as follows:

            The model does not use historical data in determining the liability for the still active members
            expected to earn an award.
            The model does not account for the interest forbearance liability related to the awards expected
            to be earned by the still active members.
            The model incorrectly excludes actual outlay distributions made during the base year for
            program ages two through seven in the projection of the usage rates for the educational awards
            and interest forbearance.

      We recommend that the Corporation review the above assumptions in its service award liability
      model and use historical data available to ensure that more reasonable estimates of the service award
      liability are calculated.

B.4   Certain Members inappropriately received service awards
      Our test of the SPAN Database included a computer assisted audit technique for a comparison of the
      enrollment date to the completion date for all members who earned service awards. As a result of
      these procedures, we noted that:

            478 members who completed service in less than 235 days for program years 1994 through
            2000 earned a full-time award;
            1,139 members who completed service in more than 400 days for program years 1994 through
            2000 earned a full-time education award.

      Applicable laws and regulations require full-time members to complete service during a "period of
      not less than 9 months and not more than 1 year".

            17 members who completed service in more than 1095 days earned a part-time education
            award. Applicable laws and regulations require part-time members to complete service during
            a period of "not more than 3 years".

      We recommend that the Corporation periodically review the SPAN database to ensure that the
      awards are earned within the time period required. Any exceptions to the time requirements should
      be followed up and resolved with the program sponsors.

                                                  6                                             (Continued)
                                                                                                    Appendix A
                                OFFICE OF THE INSPECTOR GENERAL
                   CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                             Recommended Improvement to the Corporation's
                                 Internal Controls - Management Letter
                                               Fiscal Year 2001



(C)   Human Resources
      C.1   Controls overpayment of subsistence to VISTA members should be improved
            During our test work over 66 VISTA members during fiscal year 2001, we noted the following
            payroll processing exceptions:

                  Two members received a prorated education award, although their service was terminated
                  without compelling reasons;
                  Two members were issued up to three subsistence payments after their effective termination
                  date due to the delayed notification of their termination or the delayed processing of their end
                  of term forms.
                  -     One individual (MD) was issued overpayments in the amount of $1,251.38 (four
                        paychecks), but these paychecks were returned by the project director and cancelled by
                        Treasury;
                  -     One individual (TX) was paid for a full pay period as opposed to only five days. The
                        overpayment amount of $222.48 was brought to the attention of the Corporation upon
                        our finding;
                  -     One individual (VA) was issued overpayments in the amount of $1,000.12 (three
                        paychecks plus one extra day) in December 2000. We noted that the Corporation
                        canceled four checks in November 2001, instead of three. As a result, the Corporation
                        owed $895.0 1 to the individual for 13 days.

            Proper internal controls require that an authorized person review payroll records for VISTA
            members for accuracy prior to disbursements.

            We recommend that an independent review of VISTA payroll records be performed to identify and
            correct any noted errors prior to disbursements. Further, the monitoring of the sponsor verification
            process should be strengthened to ensure timely notification and processing of VISTA member
            terminations.

      C.2   VISTA memberJiles are incomplete
            During our review of 66 VISTA member files for fiscal year 2001, we noted that files were
            incomplete as follows:

                  Six application and sponsor evaluation forms were not signed by the State Program Director or
                  Regional Program Director.
                  13 application and sponsor evaluation forms were not included in the member file.
                  Two files did not have properly completed health questionnaire or health benefits forms.

                                                        7                                             (Continued)
                                                                                                      Appendix A
                                OFFICE OF THE INSPECTOR GENERAL
                   CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                             Recommended Improvement to the Corporation's
                                 Internal Controls - Management Letter
                                                Fiscal Year 2001



                 Seven files did not have a health questionnaire or health benefit form.
                 Two files did not have completed TerminatiodFuture Plans forms.
                  1 1 files did not have Sponsor Verification Letters for the pay periods selected.
                 Three files did not have end-of-term forms.
                 For three members who received an education award, the end-of-term forms reviewed were
                 not signed and approved by a certifying official.

            VISTA Member Guidelines require a complete application file that includes a completed health
            questionnaire or health benefit form, TerminatiodFuture Plans form, application or sponsor
            evaluation form, and application form that includes the State Program Director signature.

            We recommend that the Corporation reemphasize to all State Offices the importance of maintaining
            accurate and complete VISTA member files. Additionally, periodic spot checks of the completeness
            and accuracy of files should be made by the VISTA State Office Directors.

      C.3 Inaccurate information is entered into VMS/SPANfor VISTA members
            During our test work over 66 VISTA members, we noted that information was incorrectly entered in
            VMSISPAN as follows:

                 For one member reviewed, we noted that the name of the member was entered incorrectly in
                 VMSISPAN;
                 For five members reviewed, the subsistence rate was incorrectly entered into VMS. As a
                 result, 2 members were underpaid (total $573.50) and 3 members were overpaid (total $782).

            Proper internal controls require that data entered into the VMSISPAN system is complete, accurate
            and supported by source documentation.

            We recommend that an independent review of information entered into VMSISPAN be performed by
            a second individual and compared to source documentation to ensure its accuracy.
(D)   Revenue from Reimbursable Agreements
      D.1   Demand letters are not consistently sent on delinquent receivables
            Five of 10 receivable accounts tested were delinquent (i.e., outstanding more than 30 days) as of
            September 30, 2001, however the demand letters were not consistently sent to the debtors during
            fiscal year 2001 as follows:

                  For one exception, the Corporation was unable to produce documentation to support any
                  collection efforts on a $95,000 account initially billed on September 30,2000;


                                                         8                                             (Continued)
                                                                                                      Appendix A
                                 OFFICE OF THE INSPECTOR GENERAL
                   CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                              Recommended Improvement to the Corporation's
                                  Internal Controls - Management Letter
                                                Fiscal Year 2001



                  For one exception, the file did not contain adequate documentation to support collection
                  efforts. Additionally, we noted that this receivable is in the process of being written off as
                  uncollectible;
                  For the remaining three exceptions, the demand letters were sent seven, eight, and nine months
                  late.
            We continue to recommend that the Corporation run an exception report to determine which
            delinquent receivables have not been sent a demand letter on a monthly basis to ensure proper
            notification is provided to the debtors. In addition, we recommend that the director of accounting or
            another senior management review this report to determine which demand letters are not consistently
            sent on delinquent receivables.

      0.2   The Corporation's methodology for aging receivables needs improvement
            As noted in the prior year, although the Corporation bills cost share agreements quarterly, the
            Corporation does not send demand letters until after the end of the agreement period. Such
            receivables are not considered delinquent until two demand letters have been sent. Thus, no interest
            penalties are assessed on cost share receivables until 90 days after the date of the final invoice, when
            interest is retroactively calculated as of the 60th day after final invoicing. For example, the first
            quarter billings of a one-year cost share agreement would be twelve months old before being
            classified as delinquent.

            The Corporation also does not commence the aging of receivables for cost share agreements until the
            final date of invoicing. Thus, the first quarter billings of a one year cost share agreement would be
            nine months old before the Corporation starts to count the number of days outstanding for purposes
            of calculating the allowance for doubtful accounts (i.e., the date of final invoicing is considered "day
            one" for aging purposes).
            We continue to recommend that the Corporation review and revise its cost share accounting policies
            to use the due date specified on each invoice as the "begin date" for aging of receivables and
            assessing penalties and interest.

(E)   Information Technology
      E.1   Recommendations for continued improvements in the electronic processing offinancial
            transactions
            The Corporation has made significant progress over the past several years in automation of its key
            business processes. It has implemented a financial managementlgeneral ledger system, has
            developed a system to manage participants, educational awards and the National Service Trust, and
            is in the process of deploying a new system that facilitates grants management. Looking ahead from
            this point, it is recommended that the Corporation analyze where its financial processes still have
            manual procedures interspersed with the automated systems. Manual processing procedures, in
            general, create opportunities for human error and variability that can have an affect on data integrity.

                                                         9                                              (Continued)
                                                                                               Appendix A
                           OFFICE OF THE INSPECTOR GENERAL
             CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                        Recommended Improvement to the Corporation's
                            Internal Controls - Management Letter
                                          Fiscal Year 2001



      They also can cause gaps in the electronic audit trail for financial transactions. Even with good
      paper-based controls for manual procedures, overall financial transaction processing is inherently
      less repeatedly reliable with interspersed manual procedures than a process that is electronic end-to-
      end. (This recommendation is not meant to imply that there should be any less human oversight,
      approval or verification of the financial transactions.)

      Increased reliance on automated processes can improve data integrity and the reliability of financial
      transaction processing, as discussed above. However, at the same time, automated processes require
      increased attention to specific controls for data validation and access to the application system.
      Without adequate controls, there is a potential for systematic repetition of errors, and therefore, a
      potentially greater impact from problems.

      It is recommended that the Corporation review the processing of financial transactions for the
      System for Programs, Agreements and National Service participants, and consideration be given to
      automating those processes that will result in a saving of time and an increase in data accuracy.

E.2   Lack ofproper access controls for WBRS
      As noted in the prior year, the following access control deficiencies in violation of OMB Circular A-
      130 were found:

            WBRS password entry attempts are not limited to three attempts; an individual may reload the
            login window and try to gain access indefinitely. Multiple failed attempts do not trigger a
            freezing of the account to defend the system against unauthorized access.
            Even though the training and help materials suggest that users should use passwords that are at
            least six characters long, there is no enforcement. Users were found with passwords of five
            character lengths.
            WBRS does not automatically log off after a period of 30 minutes of inactivity
            .We were informed by the Corporation that:

            For financial reasons, it did not complete the work necessary to comply with these findings.
            Funds are being made available in fiscal year 2002 to bring the system in compliance.
            There are also additional recommendations that have been made which it is planning on
            incorporating in to a redesign of WBRS that will make the system a module of the eSPAN
            system. This work will begin in the third quarter of fiscal year 2002 and will be completed in
            time for the beginning of the next grant cycle (2nd quarter of fiscal year 2003).

      We recommend the Corporation continue these plans to improve access controls over WBRS.




                                                                                                 (Continued)
                                                                               CORPORATION

                                                                               FOR NATIONAL



  MEMORANDUM


  DATE:                      June 2 1,2002

  TO:                        Daniel Lybert, Assistant Inspector General for Audit

  FROM:               *-     &
                             *o/rt                                          of Accounting

  SUBJECT:                   Comments on OIG Draft Report 02-02, Recommended Improvements to the
                             Corporation 's Internal Controls - FY 2001 Financial Statement Audit
                             Management Letter


           The Corporation has reviewed the draft management letter containing suggestions for
  improving internal controls and is pleased to note that several areas for improvement that
  appeared in the fiscal 2000 management letter are no longer considered areas in which
  improvements are needed. The Corporation's response to each of the issues in the management
  letter is provided below. In addition, the Corporation has completed action on 12 of the 15
  recommendations included in the report. Therefore, this response also serves as notice of final
  action for those items.

  A. Grants Management

  Summary of Finding

         The management letter stated that the Corporation should improve its oversight of OMB
  Circular A- 133 reporting and grantee financial activity; grantee site visits should be improved;
  and the Corporation is not properly maintaining and utilizing the NSSC Compliance
  Monitoring database.

  Corporation Comments

  Oversight o fA-133 Re~ortinq

          The Corporation is pleased with the improvements that have been made in grants
  management during fiscal year 200 1, and agrees with the auditors' recommendations for
  strengthening procedures. The report recommends that the Corporation train staff and grantees
  on how to perform and document the A-133 audit review. The Corporation postponed A-133
  training for staff this year in order to complete higher priority activities; however it has been
  rescheduled for December 2002. The Corporation is also planning a financial management
  seminar for grantees in 2003 at which grantees will also be trained on A-1 33 tracking, review
  and resolution of their subgrantees.



MATIONAL SERVICE: GETTING THINGS DONE
\mL I < ,   y             ~ ? >, r
                : c L ~ t <,nj       P.              .
                                          \ ~ W ~ L I VUI~ 1 t - dk m u t < e ~ x   C,,rpt   n                              .
                                                                                                 1201 New York Avenue, N.W. Washington, D.C. 20525
                                                                                                 telephone 202-06-5000 website: www.nationaLerVict.org
        The auditors also suggested that grantees whose A-133 audits have not been filed with
the Federal clearinghouse should be placed in a L'hold"status if the A-1 33 audit report is not
submitted within a specified time period. Many of the Corporation's grantees, the state
commissions and state education agencies, are part of a statewide A- 133 audit that covers many
state agencies. Because of the size and scope of these audits, there can be delays that are
beyond the control of the Corporation's grantees. Therefore, the Corporation does not place
these grantees automatically in a "hold" status. Instead, we consider each situation on a case-
by-case basis and place conditions on grant awards as needed. [Corrective Action Completed]

Oversight o f Granree Financial Activity

       The report recommends that the Corporation implement review, follow-up, and institute
punitive procedures, if appropriate, to ensure that grantees submit the Financial Status Reports
(FSRs) in a timely manner.

        While the Corporation does take punitive measures against grantees who fail to submit
timely FSRs when necessary, it is important to note that failure to receive FSRs for grants that
are paid through the Health and Human Services Payment Management System (HHS PMS)
has no relation to the recording of grant expenses, advances, and payables. Such transactions
are recorded based on an automated interface between the Corporation's financial management
system, Momentum, and HHS PMS. The Corporation correctly records what is actually drawn
down on a daily basis and does not wait for FSRs to be submitted. Since all grants awarded by
the Corporation after July 1,2001, are paid through HHS PMS, the need to rely on FSRs to
record grant expenses, advances, and payables is diminishing. In the future, FSRs will only be
needed to certify grant activity at closeout. Thus, the Corporation believes that the transition of
all new grants to HHS PMS and the recording of transactions based on real-time information in
a paperless environment supercedes the need to implement new procedures related to paper
FSRs. [Corrective Action Completed]

Grantee Site Visits and the NSSC Compliance Monitoring Database

        The auditors recommended that the Corporation reemphasize the importance of issuing
monitoring reports and obtaining corrective action plans from the grantees within the timefiarne
established by the Corporation. They also suggested that the Corporation reemphasize the
importance of updating the NSSC Compliance Monitoring Database with accurate information
and in a timely manner.

        The Corporation is pleased that timeliness was the primary problem and that the
auditors found that site visit and monitoring reports are issued and staff is following up on
problems. The Corporation has reminded grant and program staffs of the importance of timely
follow-up. In addition, the new eGrants database will assist Corporation staff in providing
timely feedback and follow-up. Site visit reports will be entered on-line and provided to the
grantees electronically. Staff will receive reminders of due dates for reports and also for dates
when corrective action plans are due from grantees. The Senior Corps monitoring database is
also incorporated into eGrants and will be updated regularly. [Corrective Action Completed]
B. National Service Trust

Summary of Finding

       The management letter stated that the process of reviewing WBRS Reconciliation
Reports should be strengthened, member end-of-term forms are not always approved timely,
the Corporation's methodology for calculating the Service Award Liability needs to be
reviewed, and certain members inappropriately received service awards.

Corporation Comments

WBRS Reconciliation Re~orts

        The auditors recommended that the Corporation emphasize the importance of the
WBRS reconciliation process as a key control over the accuracy of the SPAN database, and
that cluster representatives document their reviews of the reports.

        The Corporation agrees with this finding, and has instituted a written procedure for
cluster representatives to follow in documenting their reviews. [Corrective Action
Completed]

Member End-of Term Forms

       The report recommends that the Corporation reemphasize the importance of promptly
processing members' exits to all programs.

       The Corporation recognizes that timely processing is important to all financial
operations and reemphasized the need for programs to enter forms in a timely manner.
[Corrective Action Completed]

Calculation o f the Service Award Liabilitv

        The auditors suggested that three of the assumptions used in the model should be
reviewed: (1) the model does not use historical data in determining the liability for the still
active members expected to earn an award, (2) the model does not account for the interest
forbearance liability related to the awards expected to be earned by the still active members,
and (3) the model incorrectly excludes actual outlay distributions made during the base year for
program ages two through seven in the projection of the usage rates for the educational awards
and interest forbearance.

        During fiscal 2001, the Service Award Liability model was reviewed and enhanced by
an outside accounting firm, PricewaterhouseCoopers (PwC). PwC determined that the
underlying methodology, including the estimate for still active members expected to earn an
award, was reasonable. The Corporation has performed historical analyses of data and
concluded that while there is a trend in eaming and usage over time, there is no definitive trend
in the eaming of actives expected to earn. The determination of whether a volunteer will earn
                                              B-3
or not is dependent upon numerous outside factors including the personality and goals of the
volunteer as well as the disposition of paperwork. However, the Corporation has updated the
model to incorporate KPMG's suggestions and will continue to review the model as deemed
necessary. [Corrective Action Completed]

Member Service Awards

       From their test of the SPAN database, the auditors noted that 478 members who
completed service in less than 235 days for program years 1994-2000 earned a full time award,
1,139 members who completed service in more than 400 days for program years 1994-2000
earned a full time award, and 17 members who completed service in more than 1,095 days
earned a part time education award. They suggested that the Corporation periodically review
the SPAN database to ensure that the awards are earned within the time period required.

        The Corporation also conducted a review of the SPAN database and agrees that a small
percentage of the records maintained in the SPAN database had discrepancies (specifically 336
members who completed a full time term in less than 235 days, 1,115 members who completed
service in more than 400 days and nine members who completed service in more than 1,095
days). All of the discrepancies noted by the auditors occurred in program years prior to 2001.
The Corporation has implemented various controls to virtually eliminate discrepancies such as
those that occurred prior to program year 2001. For those members who completed service in
more than 400 or 1,095 days, the net effect upon the Trust would be virtually the same should
they have completed service in 365 days or 1,095 days. The Corporation would still be liable
for paying those members prorated awards. [Corrective Action Completed]


C.   Human Resources

Summary of Finding

       The management letter stated that discrepancies were noted between in VISTA
subsistence payments; VISTA member files and data entered into SPAN on VISTA members.

Corporation Comments

VISTA Subsistence Pavments

     The auditors recommended that the Corporation conduct an independent review of
VISTA payroll records and improve monitoring to ensure timely notification and process of
VISTA member terminations.

        The Corporation will continue to emphasize the importance of maintaining accurate
VISTA payroll records. In addition, the Director of VISTA and the Director of Field Liaison
will reissue a directive to all state ofice employees stressing the importance of a timely review
and verification of the bi-weekly verification reports. The Corporation also installed a VISTA
Payroll Help Desk this year (VISTAHD) to facilitate timely response and feedback for payroll
verification. One of the functions of this help dzsk is to immediately reissue missing
verification reports. [Corrective Action Completed]

VISTA Member Files

       The auditors recommended that the Corporation reemphasize to all State Offices the
importance of maintaining accurate and complete VISTA member files and to perform periodic
spot checks.

        Earlier in fiscal 2002, the Director of VISTA and the Director of Field Liaison issued
such a direction to state office employees. Another message will be sent in July. In addition,
the Corporation conducted random spot checks of VISTA files for completeness during fiscal
2002. (Corrective Action Completed]

SPAN Data Entry for VISTA Members

       The auditors recommended that the Corporation perform an independent review of data
entered into SPAN.

        The Corporation does not believe that implementing this recommendation is a cost-
effective method to achieve the desired result-1 00% accuracy. However, an automated
review of data is performed during the processing of each bi-weekly payroll cycle. Prior to
issuing VISTA payroll, AFMS staff run a number of exception reports based on criteria
developed to identify anomalies and/or erroneous payments. These reports are reviewed and
needed adjustments are made in SPAN before t!le payroll is processed. The Corporation also
now provides a series of monthly reports to state offices that identify missing or inaccurate
SPAN data. [Corrective Action Completed]


D. Revenue from Reimbursable Agreements

Summary of Finding

       The management letter stated that demand letters are not consistently sent on delinquent
receivables, and the Corporation's methodology for aging receivables needs improvement.

Corporation Comments

Demand Letters

       The auditors recommended that the Corpration run an exception report to determine
which delinquent receivables have not been sent a demand letter on a monthly basis to ensure
proper notification is provided to the debtors. In addition, they suggested that the Director of
Accounting or another senior manager review this report to determine which demand letters are
not consistently sent on delinquent receivables.
         The AFMS Accounts Receivable team runs monthly reports of all accounts receivable
and a staff member monitors the status of each receivable. Monthly monitoring of the accounts
receivable reports includes verifying that an initial demand letter is sent timely, that a debtor
file is forwarded to headquarters for hrther collection action, and that the debt is sent to
Treasury according to Federal and Corporation Debt Collection regulations. Accounts
receivable staff request and documents monthly updates from the originating office of each
receivable. The Corporation considers its monitoring process to be appropriate given the
immaterial nature of its receivables. The exceptions noted by the auditors primarily arise from
time delays in sending demand letters due to the wide variety of transactions handled by a
limited number of service center personnel. However, the Corporation has reemphasized the
need to send demand letters out in a timely manner. [Corrective Action Completed]

Methodology for Anina Receivables

        The auditors recommended that the Corporation review and revise its cost share
accounting policies to use the due date specified on each invoice as the "begin date" for aging
of receivables and assessing penalties and interest.

        Corporation Policy Number 801, AmeriCorps*VISTA Cost Share Agreements, was
issued by the AmeriCorps*VISTA office on March 22,2001. The terms of the cost share
agreements clearly state that payments shall not be considered delinquent until 90 days after the
end of the agreement period and interest and penalties will be assessed only after the final
invoice becomes delinquent. The Corporation enters into cost share agreements with many
small sponsors that receive funding of an intermittent nature; this type of arrangement for
annual payment is considered more appropriate for these sponsors than requiring quarterly
payments. [Corrective Action Completed]


E. Information Technology

Summary of Finding

        The management letter recommended that the Corporation continue its improvements in
the electronic processing of financial transactions and remedy the lack of proper access controls
for WBRS.

Corporation Comments

Electronic Processing o f Financial Transactions

        The auditors suggested that the Corporation review the processing of financial
transactions for SPAN, and consider automating those processes that will result in a savings of
time and an increase in data accuracy. They also said that the Corporation should continue its
plans to improve access controls over WBRS.
       The Corporation will review its manual processes. The Corporation, over the next year,
will incorporate WBRS into its larger eSPAN system, thus reducing some manual processing of
what is now data transferred in electronic files. However, there may be instances where the
risks involved in manual processes are not great enough to justify the expenditures needed to
automate them.

Lack o f Proper Access Controls for KBRS

        The Corporation is proceeding to implement the suggested improvements in WBRS
security. Further, as noted above, the Corporation over the next year is incorporating the
WBRS system into its eSPAN system and will be able to utilize the security features of that
system.
                                                                                                   Appendix C
                   CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                Status of Prior Year Management Letter Comments - Management Letter
                                               Fiscal Year 2001




           Fiscal Year 2000 Management Letter Comment                          Fiscal Year 2001 Status

Grants Manaaement
A.l   An automated method of reconciling between PMS and Momentum           Closed
      currently does not exist.                                             -----


A.2   Grant files continue to lack required documentation.                  Substantially resolved, hence
                                                                            considered closed.
A.3 Procedures for Administrative Close-out of DVSA Grants are not          Included as a component of the
    consistently performed.                                                 fiscal year 2001 grants
                                                                            management reportable
                                                                            condition.
National Service Trust
B.l Trust voucher processing lacks a tracking system and established        Closed
    time frame for ~ a v m e nissuance.
                              t
B.2 Controls over educational award payments should be strengthened.        Closed
B.3 Controls over accuracy of information entered into SPAN should be       Closed
    improved.
B.4 Member enrollment and end-of-term forms on file are not always          Partially Resolved. See fiscal
    properly completed and approved timely.                                 year 2001 MLC B.2.
B.5 Certain Members inappropriately received service awards.                Repeated. See fiscal year 200 1
                                                                            MLC B.4.
B.6   The Trust Award liability calculation incorrectly included certain    Closed
      pending Members.
B.7   The roster confirmation process was ineffective during FY2000.        Closed - Trust is no longer
                                                                            using the Roster confirmations
                                                                            process.
Content o f Annual Financial Report
C.l   Additional improvements in the content of the Corporation's Annual Closed
      Financial Report should be made.
Revenue from Reimbursable Aareements
D.l Cash receipts are not consistently deposited and recorded in a timely   Substantially resolved, hence
    manner.                                                                 considered closed.
D.2 Cost share agreements are not consistently established in               Substantially resolved, hence
    Momentum in a timelv manner                                             considered closed.
D.3 Demand letters are not consistently sent on delinquent receivables.     Repeated. See fiscal year 2001
                                                                            MLC D. 1.
D.4 The Corporation's methodology for aging receivables needs               Repeated. See fiscal year 2001
    im~rovement.                                                            MLC D.2.



                                                                                                    (Continued)
                                                                                                     Appendix C
                    CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                 Status of Prior Year Management Letter Comments - Management Letter
                                                Fiscal Year 2001



            Fiscal Year 2000 Management Letter Comment                          Fiscal Year 2001 Status

Information Technolorn
E.l   Incomplete disaster recovery plan testing                              Closed
E.2   Inadequate Internal Control Assessment for Momentum at the             Closed
      National Business Center.
E.3   Shared Momentum System Administration Account.                         Closed
E.4   Lack of proper access controls for WBRS.                               Repeated. See fiscal year 2001
                                                                             MLC E.2
Procurement and General Expenses
F.l   The Corporation's cut-off policy for recording liabilities for goods   Closed
      and services received. but not aid at vear end. should be revised.
F.2   Duvlicate vendor codes should be deleted from Momentum.                Closed
Human Resources
G.l Controls over processing of payroll and maintenance of supporting
                                                             ..     -        Closed
    documentation should be improved.
G.2 National Civilian Community Corps member application files are           NCCC files were not reviewed
    incomplete.                                                              during fiscal vear 200 1 audit
G.3 Controls over National Civilian Community Corps payroll could be         Closed
    improved.
G.4 VISTA member files are incomplete.                                       Repeated. See fiscal year 200 1
                                                                             MLC C.2.
G.5 Inaccurate information is entered into VMS for VISTA members.            Repeated. See fiscal year 200 1
                                                                             MLC c.3.
G.6 Approval of Federal payroll reconciliation is not secured by a           Closed
    cryptography system.
Net Position
H.1 Expired obligations are not consistently de-obligated.                   Closed
